THE USE OF AIRPORT REVENUES BY
         THE GREATER
  ORLANDO AVIATION AUTHORITY
     Federal Aviation Administration

      Report Number AV-2006-056
      Date Issued: August 3, 2006
           U.S. Department of
                                                                     Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on the Use of Airport                                            Date:    August 3, 2006
           Revenues by the Greater Orlando Aviation
           Authority
           Federal Aviation Administration
           AV-2006-056

  From:    David A. Dobbs                                                               Reply to
                                                                                        Attn. of:   JA-10
           Assistant Inspector General
            for Aviation and Special Program Audits

    To:    FAA Administrator

           This report presents the results of our review of airport revenues at the Greater
           Orlando Aviation Authority, which operates two airports in Orlando, Florida: the
           Orlando International Airport (the Airport) and the Orlando Executive Airport.
           The objective of this review was to determine whether the City of Orlando (City),
           the airport sponsor,1 was complying with revenue use requirements. Exhibit A
           contains details on the scope and methodology we used in conducting this audit.

           In September 1976, the Aviation Authority and the City entered into an Operation
           and Use Agreement that gave the Aviation Authority the exclusive right to operate
           and control Orlando International and Orlando Executive Airports. The 50-year
           agreement began on October 1, 1976, and ends September 30, 2026. At the end of
           the 50-year period, control of the airports reverts back to the City.

           The Aviation Authority is an agency of the City and is governed by a
           seven-member board consisting of the Mayor; the Chairman of the Board of
           County Commissioners, Orange County, Florida; and five other members who are
           appointed by the Governor of Florida, subject to confirmation by the State Senate.

           The Airport and Airway Improvement Act of 1982, as amended and codified in
           Title 49 United States Code Section 47101(b), requires all airport owners and
           operators receiving Federal assistance to use revenues generated by the airport for
           the capital or operating costs of the airport, the local airport system, or other

           1
               An airport sponsor is generally a public agency that owns the airport.
                                                                                                                      2


facilities owned or operated by the airport sponsor that directly relate to the air
transportation of passengers or property. Any other use of airport revenue is
considered a revenue diversion. However, there is a “grandfather” provision that
permits use of airport revenue for non-airport purposes if assurances, agreements,
or governing laws existing before September 3, 1982, allowed such use. We did
not identify any grandfathered transactions at the Aviation Authority.

The Federal Aviation Administration (FAA) is responsible for monitoring airport
sponsors’ compliance with airport revenue use requirements. In February 1999,
FAA issued its “Policy and Procedures Concerning the Use of Airport Revenue,”2
which describes the prohibited and permitted uses of airport revenue and outlines
FAA’s enforcement policies and procedures. Under FAA’s Airport Revenue
Policy, the use of airport revenue may include reimbursements to a state or local
agency for the actual costs of services received and documented.

The law also requires airport operators to charge fees for use of the airport “…that
will make the airport as self-sustaining as possible under the circumstances
existing at the airport….” FAA has generally interpreted this provision of the law
to require airport sponsors to charge fair market value rents for non-aeronautical
uses of property. For aeronautical uses,3 FAA requires airport operators to recover
the airport’s cost of providing aeronautical services and facilities to users.

RESULTS IN BRIEF
The City has diverted $1.7 million in Airport revenues by overcharging the
Aviation Authority for police pension fund contributions and a radio
communications system upgrade. In addition, we determined that the Aviation
Authority could be losing as much as $144,000 per year in rental income from a
lease for a plant inspection station. Also, we identified approximately $493,000,
over a 5-year period, in net parking fine proceeds that have been retained by the
City instead of being used to offset the Aviation Authority’s costs of issuing the
tickets.

• Police Pension Fund. From fiscal year (FY) 2000 through FY 2005, the
  Aviation Authority overpaid $1.4 million into the pension fund because the
  City improperly calculated the Aviation Authority’s share of the pension fund
  costs.

      Under Florida State law, contributions to the pension fund are made by the
      police officers, the City, and the State. The Aviation Authority also

2
    In this report, we will refer to this policy as FAA’s Airport Revenue Policy.
3
    Aeronautical use includes any activity that involves, makes possible, is required for the safety of, or is otherwise
    directly related to the operation of aircraft.
                                                                                                        3


   contributes to the pension fund as part of its payment to the City for police
   services at the Airport. The State contributes over $2.1 million annually to the
   City’s pension fund, which allows the City to reduce its payments into the
   pension fund.

   The City calculates the Aviation Authority’s payment into the pension fund as
   a percentage of the amount the City owes the fund before the State’s payment
   is subtracted. However, the Aviation Authority should only pay its share of the
   City’s actual cost of the pension fund—the total amount required to be paid
   into the pension fund after the State’s contribution has been subtracted.
   Table 1 shows the method used by the City to calculate what the Aviation
   Authority owed the pension fund in FY 2005 and the method the City should
   have used, resulting in an overcharge to the Aviation Authority of $216,285.

    Table 1. How the Aviation Authority’s Contribution to the
   Pension Fund Was Calculated for FY 2005 and How It Should
                     Have Been Calculated
            How City Calculated the                        How City Should Have Calculated the
         Aviation Authority’s Payment                          Aviation Authority’s Payment
    Total amount the City owes the                      Total amount the City owes
    pension fund without subtracting                    the pension fund less the State’s
    the State’s contribution     $12,761,867            contribution of $2,155,329        $10,606,538
    Multiplied by the Aviation                          Multiplied by the Aviation
    Authority’s percentage of the                       Authority’s percentage of the
    City’s police payroll             10.1%             City’s police payroll                  10.1%
    Amount the City charged the                         Amount the City should have
    Aviation Authority in                               charged the Aviation Authority
    pension fund costs            $1,287,916            in pension fund costs              $1,071,631
   Note: Percentages and dollar figures have been rounded.

   Amount the City charged the Aviation Authority                                     $1,287,916
   Amount the City should have charged the Aviation Authority                         $1,071,631
   Overcharge to the Aviation Authority                                               $ 216,285

   The City should calculate the Aviation Authority’s payment as a percentage of
   the amount the City actually pays to the pension fund after the State’s
   contribution has been subtracted. Any amount the Aviation Authority paid in
   excess of its share of the City’s actual costs to the pension fund is a revenue
   diversion. From FY 2000 through FY 2005, the City diverted airport revenue
   by overcharging the Aviation Authority $1.4 million for payments into the
   pension fund.

• Radio Communications System. For the period of June 2003 through January
  2005, the Aviation Authority was overcharged $325,822 for its share of the
                                                                                  4


   upgrade costs of a radio communications system that provides for
   communication among emergency responders, airport operations personnel,
   and law enforcement personnel.

   In 1993, the City and the Aviation Authority agreed to share the cost to build
   and install a radio system, with the Aviation Authority agreeing to pay
   24 percent of the cost. Each party’s share of maintenance costs is based on
   annual actual airtime usage. The radio system was completed in 1996.

   In 2005, an upgrade to the radio system was completed, and the Aviation
   Authority paid 24 percent of the upgrade cost. According to the City’s radio
   manager, the 1993 agreement was used as the basis for charging the Aviation
   Authority 24 percent of the costs of the upgrade, but the Aviation Authority
   should only pay its actual share of the radio system upgrade. That share should
   be based on the Aviation Authority’s annual actual airtime usage of the radio
   system.

   The Aviation Authority paid $943,706 for the upgrade. If the annual actual
   airtime usage was used to calculate costs of the upgrade, the Aviation
   Authority’s cost of the upgrade would have been $617,884, or $325,822 less
   than it actually paid.

• Nominal Lease for a Plant Inspection Station. The Aviation Authority may be
  losing up to $144,000 per year in rental income and may not be as
  self-sustaining as possible due to a lease with the United States Department of
  Agriculture (USDA). The Aviation Authority has an aeronautical lease with
  USDA for $1 per year for a nearly 17,000-square-foot plant inspection station
  located at the Airport and owned by the Aviation Authority. The USDA has
  occupied the building since 1992.

   Under FAA’s Airport Revenue Policy, airports are allowed to lease property
   for aeronautical uses at less than fair market value if the airport is recovering
   its costs for the property. The $1 per year rent the Aviation Authority charges
   to USDA is far below fair market value, given that annual rental rates as high
   as $8.50 per square foot are being charged to nearby tenants for aeronautical
   uses.

   The Aviation Authority paid an estimated $1.9 million to build the USDA
   facility and pays about $36,000 each year for the maintenance of the building’s
   exterior and grounds, the incinerator, the fumigation chamber, janitorial
   services, and pest control.

   According to the Aviation Authority, it researched the viability and need for a
   USDA plant inspection station and concluded such a facility would have
                                                                                   5


   economic and employment benefits for the Central Florida community and
   would significantly enhance the Airport’s ability to attract and process
   international air commerce. An Aviation Authority official in the Commercial
   Properties office said the Authority has had very little success in bringing in
   additional commerce to the Airport.

   The Aviation Authority could not quantify the economic benefits to the Airport
   of the plant inspection station, so the Aviation Authority could not determine if
   it was recovering its cost. The Aviation Authority is subsidizing the USDA
   facility by passing the cost on to the airlines through the rates and charges the
   airlines pay, such as landing fees.

   The Aviation Authority needs to verify that the plant inspection station is
   generating revenues for the Airport in excess of the cost to the Airport. If not,
   the Aviation Authority should renegotiate the lease with USDA or find a tenant
   willing to pay the aeronautical-use rate, the fair market value rate, or a rate at
   which the Aviation Authority can recover its cost.

• Traffic Enforcement Operations. From FY 2001 to FY 2005, the City retained
  approximately $493,000 in net proceeds from parking tickets issued at the
  Airport instead of allowing the Aviation Authority to use the funds to offset its
  costs. Airport traffic enforcement employees at the Airport, whose salaries are
  paid by the Aviation Authority, issue parking fines to drivers found violating
  parking restrictions in and around the terminal area. In FY 2006, traffic
  enforcement operations at the Airport will cost the Aviation Authority an
  estimated $1.6 million.

   Under an agreement with the Aviation Authority, the City pays for the costs of
   processing the parking fines and keeps the net proceeds to help fund its parking
   division. Under a City ordinance, the City imposes a $7 surcharge on all
   parking fines. The ordinance does not prohibit the use of net proceeds (gross
   parking fines less surcharge and processing costs) to offset the cost of the
   Aviation Authority’s traffic enforcement operations. Therefore, the Aviation
   Authority should be able to use the net proceeds, ranging from approximately
   $40,000 to $175,000 per year, to offset its costs.

The budget constraints now facing FAA and the financial strains on the Nation’s
airlines and airports underscore the need for vigilant oversight of revenue use. We
are recommending that FAA ensure the City reimburses the Aviation Authority for
the $1.7 million in revenue diversions identified in this report and take steps to
prevent recurrences. FAA also needs to ensure the City provides the Aviation
Authority with the approximately $493,000 in past net revenue obtained from
parking tickets plus future net revenue to offset the cost of traffic enforcement
operations. Finally, FAA should require the Aviation Authority to at least recover
                                                                                    6


its costs of the plant inspection station. If the Aviation Authority is not recovering
its costs, it should either renegotiate the lease with USDA or find another tenant
willing to pay a rate at which the Aviation Authority can recover its costs.

Summary of Management Comments and Office of Inspector General
Response
On June 14, 2006, we sent FAA a draft of our report. On June 28, 2006, FAA
provided us with its formal response, which is contained in its entirety in the
Appendix. FAA concurred with four of the five recommendations. For the fifth
recommendation, FAA’s comments were not fully responsive because it neither
concurred nor noncurred with the recommendation. In addition, FAA did not
include target dates for completing its planned corrective actions. On July 14,
2006, FAA Headquarters officials from the Office of the Associate Administrator
for Airports stated they plan to complete all planned corrective actions by
October 1, 2006. FAA officials also provided us with an alternative course of
action in response to the fifth recommendation.

FAA’s planned corrective actions are responsive to three of the five
recommendations. However, the remaining two recommendations cannot be
considered resolved at this time, pending FAA’s determination on whether the
City should reimburse the Aviation Authority for overpayments to the City’s radio
communication system and how the Aviation Authority is paying for the capital
and maintenance costs of the plant inspection station.

FINDINGS AND RECOMMENDATIONS
The revenue diversions we have identified in this report are examples of the
prohibited use of airport revenue under Federal law and FAA’s Airport Revenue
Policy and are tied directly to agreements between the Aviation Authority and the
City. We have identified $1.7 million in revenue diversions as a result of the
City’s overcharging the Aviation Authority for police pension fund contributions
and a radio communications system. In addition, we determined that the Aviation
Authority could be losing as much as $144,000 per year in rental income from a
lease with USDA. Also, we identified approximately $493,000, over a 5-year
period, in net parking fine proceeds from parking fines issued at the Airport that
have been retained by the City instead of being returned to the Aviation Authority
to offset the costs of issuing the tickets.

Payments to the Police Pension Fund
From FY 2000 through FY 2005, the Aviation Authority overpaid $1.4 million
into the pension fund because the City improperly calculated the Aviation
Authority’s share of the pension fund costs.
                                                                                                   7


The City administers the pension fund and calculates each year’s total obligation.
Contributions to the City’s pension fund are made by the police officers, the City,
and the State. The State provides funding to the City, reducing the amount the
City must pay into the pension fund. The State’s contribution comes from taxes
on casualty insurance policies written in cities that assess such a tax. Over the last
6 fiscal years, FY 2000 through FY 2005 (the most recent data available), the State
has contributed over $2.1 million to the City’s police pension fund each year. The
Aviation Authority also contributes to the pension fund as part of its payment to
the City for the cost of police services at the Airport.

Table 2 illustrates the method used by the City to calculate what the Aviation
Authority owed the pension fund in FY 2005 and the method the City should have
used, resulting in an overpayment of $216,285 by the Aviation Authority. The
City calculates the Aviation Authority’s payment in the pension fund as a
percentage of the amount the City owes into the fund before the State’s payment is
subtracted. The City should calculate the Aviation Authority’s payment as a
percentage of the amount the City actually pays to the pension fund after the
State’s contribution has been subtracted. We found the Aviation Authority made
overpayments of $1.4 million from FY 2000 through FY 2005.

     Table 2. Improper and Proper Methods for Calculating the
    Aviation Authority’s Payments Into the Police Pension Fund
           Method Used (FY 2005)                                  Proper Method (FY 2005)
 Total amount owed                                       Total amount owed
 the pension fund             $12,761,867                the pension fund               $ 12,761,867
                                                         Less State’s contribution      $ 2,155,329
                                                         Total amount the City owes
                                                         the pension fund               $ 10,606,538
 Multiplied by the Aviation                              Multiplied by the Aviation
 Authority’s percentage of the                           Authority’s percentage of the
 City’s police payroll                        10.1%      City’s police payroll                 10.1%
 Amount the City charged the                             Amount the City should have
 Aviation Authority in                                   charged the Aviation Authority
 pension fund costs                     $ 1,287,916      in pension fund costs          $ 1,071,631
Note: Percentages and dollar figures have been rounded

    Amount the City charged the Aviation Authority                                    $1,287,916
    Amount the City should have charged the Aviation Authority                        $1,071,631
    Overcharge to the Aviation Authority                                              $ 216,285

Federal law requires airport revenue to be used only to pay for capital and
operating costs of the airport. These payments may include reimbursements to a
state or local agency only for the actual costs of services received and
documented. Therefore, the Aviation Authority should only pay its portion of the
                                                                                      8


City’s actual cost of the pension fund—the total amount required to be paid into
the pension fund after the State’s contribution has been subtracted. Any amount
the Aviation Authority paid in excess of its share of the City’s actual costs to the
pension fund is a revenue diversion.

As shown in Table 3, from FY 2000 through FY 2005, the City overcharged the
Aviation Authority for its payments into the pension fund. This has resulted in
revenue diversions of $1,414,043.

             Table 3. Revenue Diversions to the Pension Fund
                           (FY 2000 – FY 2005)
 Fiscal      Aviation Authority’s              Amount                 Amount of
 Year          Actual Payment             Aviation Authority       Revenue Diverted
                                          Should Have Paid
  2000              $ 810,179                $ 563,965                 $246,214
  2001              $ 658,766                $ 402,009                 $256,757
  2002              $ 755,056                $ 505,195                 $249,861
  2003              $ 888,845                $ 667,456                 $221,389
  2004              $1,080,700               $ 857,163                 $223,537
  2005              $1,287,916               $1,071,631                $216,285
                                              Total Revenue Diverted $1,414,043
Note: Dollar figures have been rounded.


The Aviation Authority identified the City’s practice of improperly calculating the
Aviation Authority’s share of the pension fund costs years ago. In 2003, the
Aviation Authority’s internal auditor conducted a review of the City’s charges to
the Aviation Authority, including the charges for the police pension fund. The
internal auditor concluded the City had not credited the Aviation Authority the
amount of the State’s payment for the pension fund, which resulted in lost
revenues for the Aviation Authority.

We contacted Tampa International Airport to determine the manner in which the
City of Tampa, Florida, calculates the airport’s annual payment into the City of
Tampa’s firefighter pension fund. Officials at Tampa International Airport told us
that its share of the firefighters’ pension fund cost is calculated after the State’s
contribution is subtracted.

During our review, City officials told us that there is no official City position as to
whether the City should reduce the Aviation Authority’s share of the police
pension fund cost by the State’s contribution. City officials also stated that the
City has an agreement with the Aviation Authority in which the City will not
reduce the amount overcharged to the Aviation Authority and, in return, the City
will not charge certain overhead costs to the Aviation Authority, such as officer
                                                                                 9


hiring and training costs. City officials acknowledged that this agreement is not a
written agreement, and they did not provide us with any support that an agreement
exists.

Aviation Authority officials we spoke with stated that the mutual agreement does
not exist. Aviation Authority officials stated that if the City has additional
justifiable and documented overhead costs that should be charged to the Aviation
Authority, then the Aviation Authority should pay the costs. In turn, the Aviation
Authority’s share of the pension fund cost should be calculated after the State’s
contribution is subtracted.

Payment for Usage of the Radio Communications System
For the period June 2003 through January 2005, the Aviation Authority was
overcharged $325,822 for its share of the upgrade costs of the City’s radio
communications system. In 1993, the Aviation Authority and the City entered into
an agreement to install and share a radio system to provide communications
among emergency responders, airport operations personnel, and law enforcement.
The agreement required the Aviation Authority to pay for 24 percent of the
installation costs. Maintenance costs were to be billed based on the actual airtime
usage of the radio system. The radio system was completed in 1996.

Between 2001 and 2005, the radio system was upgraded in multiple phases. The
City billed the Aviation Authority $943,700 for the upgrade, or 24 percent of the
total cost. According to the City’s radio manager, the original 1993 agreement
was used as the basis for charging the Aviation Authority 24 percent of the system
upgrade costs. Yet, under Federal law, airport revenue used for reimbursements to
a state or local agency can only be used for the actual costs of services received
and documented. Thus, the Aviation Authority should only pay its share of the
radio system upgrade costs, which should be based on the Aviation Authority’s
actual airtime usage of the system. During the upgrade, the Aviation Authority’s
annual actual airtime usage ranged from 14.4 to 18.1 percent versus the 24 percent
the City charged the Aviation Authority.

As shown in Table 4, if the annual actual airtime usage was used to calculate costs
of the upgrade, the Aviation Authority’s cost of the upgrade would have been
$617,884, instead of the $943,706 the City charged the Aviation Authority.
Therefore, the City overcharged the Aviation Authority $325,822.
                                                                                        10


                  Table 4. Revenue Diversion To Upgrade the
                     City’s Radio Communication System
  Fiscal       Total Cost           Amount       Authority’s   Authority’s    Amount City
  Year                              Paid by        Usage       Share Based    Overcharged
                                   Authority                    on Usage       Aviation
                                                                 (2 x 4)       Authority
    (1)            (2)                 (3)           (4)            (5)         (3 – 5)
   2003         $1,172,200           $ 281,333     18.10%         $ 212,168      $ 69,165
   2004         $2,494,650           $ 598,716     14.44%         $ 360,227      $ 238,489
   2005         $ 265,240            $ 63,658      17.15%         $ 45,489       $ 18,169
  Totals        $3,932,090           $ 943,706                    $ 617,884      $ 325,822
Note: Dollar figures have been rounded.


Authority May Not Be Recovering Costs on Lease of Airport Property
Out of the 17 Aviation Authority property leases we reviewed, one was below fair
market value. The Aviation Authority has a $1 per year aeronautical lease with
USDA for a nearly 17,000-square-foot building located at the Airport and owned
by the Aviation Authority. The USDA has occupied the building since 1992. The
$1 per year rent the Aviation Authority charges to USDA is far below fair market
value, given that rental rates of up to $8.50 per square foot per year are being
charged to nearby tenants for aeronautical uses. Thus, the Aviation Authority
could be obtaining rent of up to $144,000 per year for the USDA facility.

Under FAA’s Airport Revenue Policy, airports are allowed to lease property for
aeronautical uses at less than fair market value if the airport is recovering its costs
for the property. The Aviation Authority paid an estimated $1.9 million to build
the USDA facility and pays $36,000 annually for the maintenance of the
building’s exterior and grounds, the incinerator, the fumigation chamber, janitorial
services, and pest control.

According to the Aviation Authority, it researched the viability and need for a
USDA plant inspection station and concluded such a facility would have economic
and employment benefits for the Central Florida community and would
significantly enhance the Airport’s ability to attract and process international air
commerce. An Aviation Authority official in the Commercial Properties office
said the Authority has had very little success in bringing in additional commerce
to the Airport.

The Aviation Authority could not quantify the economic benefits of the plant
inspection station, so the Aviation Authority could not determine if it was
recovering its cost. Any costs not recovered by the Aviation Authority are paid by
the airlines. Therefore, the Aviation Authority is subsidizing the USDA facility
                                                                                   11


and passing the cost on to the airlines through the rates and charges they pay, such
as landing fees.

Under its lease agreement with USDA, either party may cancel the lease by giving
a 180-day written notice. The Aviation Authority needs to verify that the plant
inspection station is generating revenues for the Airport in excess of the cost to the
Airport. The plant inspection station should be generating enough additional
international commerce to justify the cost of the facility. If the Aviation Authority
is not recovering its cost, it should renegotiate the lease with USDA or find a
tenant willing to pay the aeronautical-use rate, the fair market value rate, or a rate
at which the Aviation Authority can recover its cost.

Cost Recovery From Airport Traffic Enforcement Operations
From FY 2001 to FY 2005, the City retained approximately $493,000 in net
proceeds from parking tickets issued at the Airport instead of allowing the
Aviation Authority to use the funds to offset its costs. Airport traffic enforcement
employees at the Airport, whose salaries are paid by the Aviation Authority, issue
fines to drivers violating terminal area parking restrictions. Traffic enforcement
operations at the Airport will cost an estimated $1.6 million in FY 2006.

Under an agreement with the Aviation Authority, the costs of processing the
parking fines are incurred by the City, and the net proceeds (fines less processing
costs and surcharges) are retained by the City instead of being returned to the
Aviation Authority to offset the costs of issuing the tickets. During FY 2001
through FY 2005, approximately $493,000 in net parking fine proceeds were
collected and retained by the City from parking fines issued at the Airport.

In the past, FAA has taken the position that parking fines are not airport revenues.
FAA defers to state or local law on the use of proceeds from parking fines. The
City has an ordinance governing the use of proceeds from parking fines (to include
parking fines issued at the Airport) in which the City imposes a $7 surcharge on
all parking fines, with the proceeds from the surcharge going toward a school
crossing guard program. According to the City parking manager, the remaining
proceeds are retained by the City to help fund its parking division. The City
ordinance does not require the net proceeds to be kept by the City, nor does it
prohibit the use of such proceeds to offset the cost of the Aviation Authority’s
traffic enforcement operations. FAA should require the City return net parking
ticket revenue from parking fines issued at the Airport to the Aviation Authority to
offset its costs.
                                                                                 12


RECOMMENDATIONS
We recommend that the Federal Aviation Administrator require the City of
Orlando to:

1. Revise its method for calculating the Aviation Authority’s police pension fund
   contribution to be a percentage of the City’s actual contribution to the pension
   fund—the total amount required to be paid into the pension fund after the
   State’s contribution has been subtracted.

2. Reimburse the Aviation Authority $1.4 million for overcharges to the City’s
   police pension fund and $325,822 for overpayments to the City’s radio
   communication system operations, plus interest as required by the Airport
   Revenue Protection Act of 1996.

3. Provide the Aviation Authority with approximately $493,000 in past net
   revenue from parking tickets at Orlando International Airport to offset the
   Aviation Authority’s costs of traffic enforcement operations.

4. Revise its agreement with the Aviation Authority to make sure that future net
   revenue obtained from parking tickets at Orlando International Airport is
   returned to the Aviation Authority to offset the costs of traffic enforcement
   operations.

Furthermore, we recommend the Federal Aviation Administrator require the
Aviation Authority to:

5. Verify it is recovering its cost of the plant inspection station operated by
   USDA at Orlando International Airport. If the Aviation Authority is not
   recovering its cost, then it should renegotiate the lease with USDA or find a
   tenant willing to pay the aeronautical-use rate, the fair market value rate, or a
   rate at which it can recover its cost.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
On June 14, 2006, we sent FAA a draft of our report. On June 28, 2006, FAA
formally responded, and its response is contained in its entirety in the Appendix.
FAA agreed with Recommendations 1 through 4, and the actions planned are
responsive to Recommendations 1, 3, and 4. However, Recommendation 2 cannot
be considered resolved at this time, pending FAA’s determination on whether the
City should reimburse the Aviation Authority for overpayments to the City’s radio
communication system.
                                                                                13


For Recommendation 5, FAA’s comments were not fully responsive because it
neither agreed nor disagreed with the recommendation. Instead, FAA stated it
reserves its judgment on this recommendation pending a determination of how the
costs for the USDA facility are being recovered.

Also, FAA did not include target dates for completing its planned corrective
actions for all the recommendations. On July 14, 2006, FAA Headquarter officials
from the Office of the Associate Administrator for Airports stated they plan to
complete all planned corrective actions by October 1, 2006. FAA officials also
provided us with an alternative course of action in response to Recommendation 5.

A summary of FAA’s comments and our response follows.

Recommendation 1. FAA will ask the City for a corrective action plan that will
ensure the City will correctly charge the Aviation Authority’s police pension costs
in the future (including 2006).

Recommendation 2. FAA will ask the City for a corrective action plan that will
repay the Aviation Authority $1.4 million in overcharges to the police pension
fund plus interest and $325,822 in overpayments for upgrading the City’s radio
communications system, “…provided the OIG’s [Office of Inspector General]
premise is supported that the upgrade of the radio system is a maintenance cost
and not a capital cost.”

We disagree with FAA’s response regarding overpayments for upgrading the
City’s radio communications system. The type of cost—maintenance or capital—
has no bearing on whether the City should reimburse the Aviation Authority for
overpayments. The City’s charges to the Aviation Authority for upgrading the
radio communication system should be based on actual costs of services received
and documented, which are best reflected in the Aviation Authority’s actual
airtime usage of the system.

Recommendations 3 and 4. FAA will ask the City to comment on its reason for
not returning a residual share of the parking fines to the Aviation Authority. If
FAA determines the City diverted airport revenue, FAA will require it to submit a
corrective action plan that will repay the Aviation Authority the $493,000 plus
interest and ensure the City will return that share of the Aviation Authority
parking fines not claimed by the ordinance to the Aviation Authority for all future
years, including 2006.

Recommendation 5. FAA stated it reserves judgment on this recommendation
pending a determination of how the costs for the USDA facility are being
recovered and stated it will ask the Aviation Authority to submit documentation on
its cost recovery methodology.
                                                                                  14


On July 14th, FAA Headquarters officials from the Office of the Associate
Administrator for Airports agreed to require the Aviation Authority to verify it is
recovering its cost of the plant inspection station operated by USDA at the Airport.
FAA will take action against the Aviation Authority if it finds that the airlines
were unknowingly paying for the capital and maintenance costs of the plant
inspection station through their airport rates and charges.

However, if FAA finds that the airlines are willingly paying for the capital and
maintenance costs of the plant inspection station or that the Aviation Authority is
using Airport concession revenues to cover those costs, then FAA will not require
the Aviation Authority to renegotiate the lease with USDA or find a tenant willing
to pay the aeronautical-use or the fair market value rate.

We agree with FAA’s proposed course of action regarding taking action against
the Aviation Authority if it finds that the airlines were unknowingly paying for the
capital and maintenance costs of the plant inspection station through their airport
rates and charges. However, we disagree with FAA’s position that it will not
require the Aviation Authority to renegotiate the lease with USDA or find a tenant
willing to pay the aeronautical-use or fair market value rate if the airlines are
willingly paying for the plant inspection station costs or that the Aviation
Authority is using Airport concession revenues to cover those costs.

The Aviation Authority should not be subsidizing the USDA facility by passing
the capital and maintenance costs of the plant inspection station on to the airlines
through the rates and charges. Nor should the Aviation Authority be using Airport
concession revenues to cover the capital and maintenance costs of the facility.
The plant inspection station should be generating enough additional commerce to
justify the capital and maintenance costs of the facility. Otherwise, the Aviation
Authority should find a tenant willing to pay the aeronautical-use rate, the fair
market value rate, or a rate at which it can recover its cost, especially since there
are other aeronautical users whose Airport leases are at or near fair market value.

ACTIONS REQUIRED
FAA’s planned corrective actions are responsive to Recommendations 1, 3, 4, and
the part of Recommendation 2 regarding FAA asking the City for a corrective
action plan that will repay the Aviation Authority $1.4 million in overcharges to
the police pension fund plus interest.

However, Recommendations 2 and 5 cannot be considered resolved at this time,
pending FAA’s determination on whether the City should reimburse the Aviation
Authority for overpayments to the City’s radio communication system and how
the Aviation Authority is paying for the capital and maintenance costs of the plant
inspection station. We request that FAA provide the results of its determination to
                                                                            15


our office by October 1, 2006. These recommendations will remain unresolved
pending our review of FAA’s final determination of the issues raised.

We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions concerning this report, please call me at
(202) 366-0500 or Robin Hunt, Deputy Assistant Inspector General for Aviation
and Special Program Audits, at (415) 744-3090.

                                      #

cc: FAA Deputy Administrator
    FAA Chief of Staff
    Acting Associate Administrator for Airports
    Anthony Williams, ABU-100
    Martin Gertel, M-1
                                                                             16



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this performance audit in accordance with Generally Accepted
Government Auditing Standards prescribed by the Comptroller General of the
United States. We designed the review steps to provide reasonable assurance of
detecting abuse or illegal acts and included such tests as were considered
necessary under the circumstances.

We conducted our review during the period September 2005 through March 2006.
The review was performed at the Greater Orlando Aviation Authority, the FAA
Orlando Airports District Office, and the offices of the City of Orlando and
KPMG Certified Public Accountants. Our review primarily covered FY 2004 and
FY 2005 but was expanded to earlier periods as necessary.

Our objective was to determine whether the City of Orlando was complying with
airport revenue use requirements. To make this determination, we (1) identified
FAA’s regulations regarding proper use of airport revenue, (2) reviewed Aviation
Authority financial reports, (3) reviewed independent auditors’ working papers,
(4) met with senior Aviation Authority and FAA Airports District Office staff,
(5) reviewed Aviation Authority payments to the City and other government
entities, (6) reviewed leases at Orlando International and Orlando Executive
airports, and (7) held discussions with City officials.

We obtained a list of Aviation Authority payments for FY 2004 and FY 2005 and
a list of leases and the rental revenue received. For services provided to the
Authority, we primarily selected and reviewed payments to the City of Orlando;
the State of Florida; and Orange County, Florida.

Our review of FY 2004 and FY 2005 led us to expand to prior fiscal years, where
we also found revenue diversions. Title 49 United States Code Section 47107(n)
imposes a statute of limitations of 6 years for recovering illegal revenue
diversions. Thus, to the extent possible, we determined dollar amounts for
revenue diversions back to FY 2000.




Exhibit A. Scope and Methodology
                                                                                          17


APPENDIX. MANAGEMENT COMMENTS



                   Federal Aviation
                   Administration

Memorandum
Date:

To:             David Dobbs, Assistant Inspector General for Aviation and Special Program
                Audits, JA-10


From:           Catherine M. Lang, Acting Associate Administrator for Airports, ARP-1

Prepared by:    Lyle Fjermedal, Compliance Specialist, Airport Compliance Division,
                AAS-400, x75879

Subject:        Report on the Use of Airport Revenues by the Greater Orlando Aviation
                Authority, Project Number 05A3015A000


We appreciate the opportunity to respond to the Report on the Use of Airport Revenues by the
Greater Orlando Aviation Authority (Authority). Your report stated the city of Orlando (city)
diverted $1.7 million of airport revenue in violation of 49 U.S.C. 47107(b), the city
overcharged the Authority $325,822 for the Authority’s share of an upgrade of a radio
communications system, the Authority maybe losing $144,000 per year in rent for a plant
inspection station, and the Authority did not receive $493,000 in parking fines that were
instead retained by the city. Your report contained five recommendations that we discuss in
the following paragraphs.

        1. We recommend that the FAA Administrator require the city to
        revise its method for calculating the Authority’s police pension fund
        contribution to be a percentage of the city’s actual contribution to the
        pension fund—the total amount required to be paid into the pension
        fund after the State’s contribution has been subtracted.


The FAA concurs with Recommendation 1. The OIG found from fiscal year 2000 through
2005, the Authority overpaid $1.4 million into the police pension fund because the city

Appendix. Management Comments
                                                                                                18
improperly calculated the Authority’s share of the cost. The city calculated the Authority’s
payment as a percentage of the amount the city owed before subtracting the State’s
contribution. The city should have calculated the Authority’s payment as a percentage of the
amount the city owed after subtracting the State’s contribution. The FAA will ask the
Authority for a corrective action plan that will repay the Authority for the $1.4 million
overcharge, plus interest, and ensure the city will correctly charge the Authority’s police
pension costs for the future (including 2006).

       2. We recommend that the FAA Administrator require the city to
       Reimburse the Authority $1.4 million for overcharges to the city’s police
       pension fund and $325,822 for overpayments to the city’s radio
       communication system operations, plus interest.


The FAA concurs with the portion of Recommendation 2 that pertains to the police pension
plan, and the FAA concurs with the portion of the recommendation that pertains to the radio
communications system, provided the OIG’s premise is supported that the upgrade of the
radio system is a maintenance cost and not a capital cost. Between 2001 and 2005, the city
billed the Authority $943,700 or 24 percent of the cost to upgrade the radio communications
system based on the 1993 agreement to build and install the radio system. Maintenance costs
of the radio system are shared based on the actual airtime use of the system. The Authority’s
actual airtime usage varied from 14.4 to 18.1 percent. The difference resulted in the OIG
finding the city overcharged $325,822. The FAA will ask the Authority for a corrective
action plan that will repay the Authority the $1.4 million from the police pension plan and, if
supported, the $325,822 cost of upgrading the radio communications system.

       3. We recommend that the FAA Administrator require the city to provide
       the Authority with $493,000 in past net revenue from parking tickets at
       Orlando International Airport to offset the Authority’s costs of traffic
       enforcement operations.


The FAA concurs with Recommendation 3 to the extent the city diverted airport revenue.
During fiscal years 2001 through 2005, the city retained $493,000 in net parking fines at
Orlando International Airport. A city ordinance enables the city to impose a $7 surcharge on
all parking fines, with the proceeds going to its school-crossing program. The city retains the
remainder to fund the city’s parking division. The Authority pays the entire cost of its on-
airport parking program, but the city does not return a portion of the fines to the Authority to
offset any of the Authority’s parking enforcement costs. The city ordinance does not require
the net proceeds to be kept by the city, nor does it prohibit the use of the proceeds to offset the
Authority’s parking enforcement costs. The FAA will ask the city to comment on its reason
for not returning a residual share of the parking fines to the Authority. If the FAA determines
the city diverted airport revenue, the FAA will require it to submit a corrective action plan
that will repay the Authority the $493,000 plus interest and ensure the city will return that
share of the Authority parking fines not claimed by the ordinance to the Authority for all
future years, including 2006.



Appendix. Management Comments
                                                                                              19
       4. We recommend that the FAA Administrator require the city to revise its
       agreement with the Authority to make sure that future net revenue
       obtained from parking tickets at the airport is provided to the Authority
       to offset the costs of traffic enforcement operations.


The FAA concurs with Recommendation 4 to the extent the city diverted airport revenue. If
the FAA determines the city diverted airport revenue, the FAA will require it to submit a
corrective action plan that will repay the Authority the $493,000 plus interest and ensure the
city will return that share of the Authority’s parking fines not claimed by the city ordinance to
the Authority for all future years, including 2006.

       5. We recommend the FAA Administrator require the Authority to verify
       it is recovering its cost of the airport plant inspection station operated by
       the United States Department of Agriculture (USDA). If the Authority is
       not recovering its cost, then it should renegotiate the lease with USDA or
       find a tenant willing to pay the aeronautical-use rate, the fair market
       value rate, or a rate at which it can recover its cost.


The FAA reserves its judgment on Recommendation 5 pending a determination of how the
costs for the facility are being recovered. The Authority paid an estimated $1.9 million to
build the plant inspection facility and pays $36,000 annually for maintenance but charges the
USDA only $1 per year for rent. Either party may cancel the lease with 180 days notice. The
Authority argues the inspection station generates revenue for the Authority, but the OIG
points out the lease is well below rates charged to other aeronautical users, and the OIG states
the air carriers may ultimately pay the cost through higher rates and charges. The FAA will
ask the city to submit documentation on its cost recovery methodology.

If you have any further questions or comments, please contact Charles C. Erhard of my staff
at (202) 267-3187.




Appendix. Management Comments
